Application No. ____________

In the Supreme Court of the United States
MELVIN HODGES, JR.,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Application for Extension of Time to File a Petition for Writ of Certiorari
to the United States Court of Appeals for the Ninth Circuit
PETITIONER’S APPLICATION FOR EXTENSION OF TIME
TO FILE PETITION FOR WRIT OF CERTIORARI
Michael Filipovic
Counsel of Record
Ann K. Wagner
Federal Public Defender’s Office
1601 Fifth Avenue, Suite 700
Seattle, Washington 98101
(206) 553-1100
Michael_Filipovic@fd.org
Counsel for Petitioner

TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE
SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE
FOR THE NINTH CIRCUIT:
Pursuant to Supreme Court Rules 13.5, 22, and 30.2, Petitioner Melvin
Hodges respectfully requests a 30-day extension of time, up to and including
February 14, 2020, to file a petition for a writ of certiorari to the United States
Court of Appeals for the Ninth Circuit to review that court’s unpublished
memorandum decision in Hodges v. United States, COA No. 17-35408 (attached
as Exhibit A). On October 17, 2019, the court denied a petition for panel rehearing
with suggestion for rehearing en banc (attached as Exhibit B). The jurisdiction of
this Court will be invoked under 28 U.S.C. § 1254(a), and the time to file a petition
for writ of certiorari will expire without an extension on January 15, 2020. This
application is timely because it has been filed more than ten days prior to the date
on which the time for filing the petition is to expire.
1.

The undersigned is the Federal Public Defender for the Western

District of Washington.
2.

This case presents an important issue of statutory interpretation that

has produced intractable conflict among the lower courts: When does 28 U.S.C. §
2255(f)(3) require that a § 2255 motion based on Johnson v. United States, 135 S.
Ct. 2551 (2015), be filed when it challenges a sentence imposed under the preBooker mandatory guidelines.

1

3.

Assistant Federal Public Defender Ann K. Wagner is the lead counsel.

She has authored or coauthored all of the briefing in this case. Ms. Wagner has an
opening brief in the Ninth Circuit concerning the rarely invoked writ of audita
querela due on February 7, 2020, as well as a previously scheduled two-week
vacation during the month of January. In addition, Ms. Wagner has other appellate,
district court, and habeas cases, which have limited her availability to work on this
matter.
4.

Although the memorandum below was unpublished, it was the first

opinion in which Ninth Circuit Judge Marsha S. Berzon, in a concurrence,
announced her disagreement with the published Ninth Circuit decision on this
issue, Blackstone v. United States, 903 F.3d 1020 (9th Cir. 2018), cert. denied, 139
S. Ct. 2762 (June 23, 2019).
//
//
//
//
//
//
//
//

2

Accordingly, Petitioner Hodges respectfully requests that an order be
entered extending the time to file a petition for a writ of certiorari for 30 days, up
to and including February 14, 2020.

Dated: January 3, 2020

Respectfully submitted,

________________________________
Michael Filipovic
Counsel of Record
Ann K. Wagner
Federal Public Defender
1601 Fifth Avenue, Suite 700
Seattle, WA 98101
(206) 553-1100
Counsel for Petitioner

3

